TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Progress Has Been Slow in Implementing
                       Federal Security Configurations
                           on Employee Computers



                                          March 27, 2009

                              Reference Number: 2009-20-055




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             March 27, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Slow in Implementing Federal
                             Security Configurations on Employee Computers (Audit # 200820026)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) has made adequate progress in implementing required Federal secure
 configurations on employee computers. This audit was included in the Treasury Inspector
 General for Tax Administration Fiscal Year 2008 Annual Audit Plan and is part of our statutory
 requirement to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 IRS employees use desktop and laptop computers to perform their tax administration duties.
 Because taxpayers expect the IRS to protect their privacy and personal information, the security
 of employee computers is critical. The IRS is attempting to adopt a standard set of Federally
 required computer configuration settings and procedures to improve security and reduce
 operating costs. Although the IRS has taken actions, implementation of the configuration
 settings has been slow and some of the requirements have not been implemented. Without a
 complete set of security configuration settings, the IRS is at risk of business disruption or
 unauthorized access to taxpayers’ personal information.

 Synopsis
 The Office of Management and Budget (OMB) required Federal Government agencies that use
 the Windows XP or VISTA1 operating systems to adopt a standard set of configuration settings

 1
  Windows XP and VISTA are computer operating systems produced by the Microsoft Corporation for use on
 desktop and laptop computers.
                                Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers



by February 1, 2008. These configuration settings are referred to as the Federal Desktop Core
Configuration (FDCC). The intent of the requirement was to improve security and reduce
operating costs.
The IRS faces many challenges in implementing the FDCC. IRS employees use more than
98,000 desktop and laptop computers located in approximately 670 facilities throughout the
nation and operate more than 1,900 software applications, of which approximately 300 were
internally developed for specific IRS business processes. As part of the implementation effort,
the IRS must test each application to ensure it operates properly with the FDCC.
The IRS has made slow progress in implementing the FDCC settings. On October 29, 2008, the
IRS implemented 102 settings on IRS workstations. However, these FDCC settings were
installed on employee computers 9 months after the deadline set by the OMB for agencies to
complete their FDCC implementation efforts. As of December 11, 2008, the IRS had
implemented 205 (81 percent) of the 254 FDCC settings.
The delay in implementing the FDCC was primarily due to the untimely creation of a project
team responsible for the FDCC implementation. The OMB issued the FDCC directive in
March 2007. However, the IRS did not establish a project team until January 2008, 10 months
after the OMB issued the directive and 1 week before the deadline for completing the FDCC
implementation. The untimely creation of the project team occurred because some IRS officials
mistakenly assumed the IRS’ current common operating environment2 was compliant with the
FDCC.
We also found that, once the project team was established, the project leaders did not follow
some basic project management practices while testing software applications for FDCC
compatibility. The master control list used by the project leaders was incomplete and did not
account for many applications that needed to be tested. The discovery of 92 applications after
the 2-week testing phase required project leaders to initiate additional testing. In addition, the
Work Breakdown Structure3 developed for the project lacked critical tasks that were needed to
accomplish the project’s objectives. When basic project management practices are not followed,
the risk of business disruption increases. As an illustration, when the IRS implemented its first
set of FDCC settings, one critical application, which was not tested, began experiencing
problems and could have had severe consequences if the IRS had been unable to reverse the
settings.



2
  To ensure consistency across the IRS network and improve security, the IRS created the common operating
environment, which is a standardized set of commercial off-the-shelf and internally developed applications to
support the needs of all IRS employees using Microsoft Windows. The common operating environment also allows
the IRS to control security configuration settings and software on its workstations by changing one master template
and then installing it on all computer workstations throughout the agency.
3
  A deliverable-oriented grouping of project elements that organizes and defines the total scope of the project.
                                                                                                                  2
                            Progress Has Been Slow in Implementing
                    Federal Security Configurations on Employee Computers



The IRS also has not implemented some of the OMB’s other FDCC mandates. An automated
monitoring tool to detect and monitor changes to the FDCC settings after they are installed on
employees’ workstations has not been implemented. In addition, the IRS has not modified its
software contracts to ensure software acquisitions operate properly with the FDCC settings. We
identified 27 of 30 contracts for new software products that did not include the required FDCC
contract language.

Recommendations
To ensure that basic project management practices are followed and OMB mandates are
implemented, the Chief Technology Officer should 1) provide training to the FDCC project
managers to ensure their project management skills and qualifications are sufficient, 2) instruct
the project leaders to develop and maintain an accurate control list of applications that require
testing, 3) conduct an analysis and consider the feasibility of acquiring a monitoring tool from
the General Services Administration’s blanket purchase agreement, and 4) direct the
Cybersecurity office to coordinate with the Procurement Division and prioritize the work
necessary to include the required FDCC contract language in information technology
acquisitions.

Response
IRS management agreed with the recommendations. The IRS will provide project management
training for the FDCC project managers and ensure the master control list of applications is
maintained and updated. The Chief Technology Officer will conduct a cost-benefit analysis to
determine whether the purchase of a separate monitoring tool from the General Services
Administration’s SmartBuy Program is in the IRS’ best interest. Finally, the IRS plans to issue
an agency-wide policy and interim acquisition procedures that will incorporate the FDCC
contract language in information technology acquisitions. Management’s complete response to
the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                                    3
                                   Progress Has Been Slow in Implementing
                            Federal Security Configurations on Employee Computers




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Have Been Taken to Implement the Federal Desktop
          Core Configuration Settings .........................................................................Page 3
          A Project Team Was Not Established in a Timely Manner to
          Effectively Comply With the Office of Management and Budget
          Deadline ........................................................................................................Page 4
          Some Basic Project Management Practices Were Not Followed .................Page 4
                    Recommendations 1 and 2: ..............................................Page 8

          An Automated Monitoring Tool Was Not Implemented to Detect
          Changes to Workstation Security Settings....................................................Page 9
                    Recommendation 3:........................................................Page 10

          Software Contracts Were Not Modified to Ensure Software
          Acquisitions Operate Properly With Federal Desktop Core
          Configuration Settings ..................................................................................Page 11
                    Recommendation 4:........................................................Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
              Progress Has Been Slow in Implementing
       Federal Security Configurations on Employee Computers




                   Abbreviations

FDCC         Federal Desktop Core Configuration
IRS          Internal Revenue Service
OMB          Office of Management and Budget
                              Progress Has Been Slow in Implementing
                       Federal Security Configurations on Employee Computers




                                            Background

Internal Revenue Service (IRS) employees use desktop and laptop computers to perform their tax
administration duties. Because taxpayers expect the IRS to protect their privacy and personal
information, the security of employee computers is critical. Without a complete set of security
configuration settings for employee workstations, the IRS is at risk of business disruption or
unauthorized access to taxpayers’ personal information.
In March 2007, the Office of Management and Budget (OMB) required1 Federal Government
agencies that use the Windows XP or VISTA2 computer operating systems to adopt a standard
set of configuration settings. The intent of the requirement was to improve security and reduce
operating costs. The configuration settings were developed by the National Institute of Standards
and Technology,3 the Department of Defense, and the Department of Homeland Security and are
referred to as the Federal Desktop Core Configuration (FDCC). The OMB required that all
agencies adopt the FDCC by February 1, 2008. The National Institute of Standards and
Technology published the first set of FDCC settings in July 2007. This first set included
229 mandatory security settings and an additional 329 configuration settings that are
recommended to improve security and reduce risks and costs associated with software
vulnerabilities.
In addition to implementing the FDCC settings, the OMB required4 agencies to ensure that
software acquisitions operate properly with the FDCC settings. Agencies are required to
incorporate specific language in solicitations for new software and require vendors to certify that
their products operate effectively using the configurations. The Federal Acquisition Regulation5
was also revised to require agencies to include the FDCC requirement in contracts.
The IRS faces many challenges in implementing the FDCC settings. IRS employees use more
than 98,000 desktop and laptop computers located in approximately 670 facilities throughout the


1
  OMB Memorandum M-07-11, Implementation of Commonly Accepted Security Configurations for Windows
Operating Systems, dated March 22, 2007.
2
  Windows XP and VISTA are computer operating systems produced by the Microsoft Corporation for use on
desktop and laptop computers.
3
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
4
  OMB Memorandum M-07-18, Ensuring New Acquisitions Include Common Security Configurations, dated
June 1, 2007.
5
  The Federal Acquisition Regulation is the principal set of rules in the Federal Acquisition Regulations System.
This System consists of regulations issued by Federal Government agencies to govern the “acquisition process,”
which is the process through which the Federal Government purchases goods and services.
                                                                                                         Page 1
                               Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers



nation and operate more than 1,900 software applications, of which approximately 300 were
internally developed for specific IRS business processes. As part of the implementation effort,
the IRS must test each application to ensure the applications operate properly with the FDCC
settings.
Other Federal Government agencies have also encountered significant challenges in
implementing the FDCC. During a January 2008 conference with the OMB, one agency
representative stated that the FDCC settings would “break their systems.” Another agency
representative made similar remarks by stating that it would not be compliant with the FDCC
because a number of the settings caused problems on their computer systems.
After installing the FDCC on desktop and laptop computers, the IRS also faces challenges
regarding how to maintain the settings because system administrators throughout the IRS have
the ability to change the settings on employee computers. To address these challenges, the OMB
and the Department of the Treasury directed6 the IRS to implement an automated tool to check
that security configurations are continually maintained on computer workstations.
We focused our review on the FDCC settings that were tested and installed by the IRS project
team led by officials in the Modernization and Information Technology Services Division’s
Cybersecurity office and the End User Equipment and Services organization, which manages
more than 91 percent of the desktop and laptop computers used by the IRS. This review was
performed in the Modernization and Information Technology Services Division office in
New Carrollton, Maryland; the Martinsburg Computing Center in Martinsburg, West Virginia;
and the IRS Procurement offices in Oxon Hill, Maryland, during the period June through
December 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
    Treasury Memorandum TCIO M 08-01, Enhanced Cyber Security Controls, dated December 20, 2007.
                                                                                                   Page 2
                               Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers




                                      Results of Review

While the IRS has taken some actions to implement the FDCC, the progress has been slow and
some of the security settings have not yet been implemented. The primary reason for the slow
progress was due to the IRS not timely creating a project team to implement the FDCC. Once
established, the project team did not follow basic project management practices. In addition, the
IRS has not implemented an automated tool to detect and monitor changes to the FDCC settings
after they are implemented on IRS workstations, and it did not revise the language in its software
contracts to ensure new software products operate properly with the FDCC.

Actions Have Been Taken to Implement the Federal Desktop Core
Configuration Settings
The IRS has taken actions to implement some of the FDCC settings. Specifically:
    •   The IRS updated its internal procedures to include the FDCC settings applicable to the
        Windows XP operating system.
    •   The IRS selected 50 other settings, in addition to the 229 mandated security settings
        recommended by the National Institute for Standards and Technology, to implement in
        the IRS common operating environment.7
    •   The IRS had implemented 103 (41 percent) of the 2548 FDCC settings in its common
        operating environment prior to the start of the FDCC project. This effort provided a solid
        foundation to start the implementation activities.
    •   The project team improved its test methodology after consulting with the Microsoft
        Corporation. The new test methodology allowed the IRS to test applications in the users’
        work environments with employees from each business operating division. The testers
        were assigned to support the FDCC effort due to their knowledge of the applications.
        This approach allowed the project team to gain support from the business units and
        increase the number of testers.


7
  To ensure consistency across the IRS network and improve security, the IRS created the common operating
environment, which is a standardized set of commercial off-the-shelf and internally developed applications to
support the needs of all IRS employees using Microsoft Windows. The common operating environment also allows
the IRS to control security configuration settings and software on its workstations by changing one master template
and then installing it on all computer workstations throughout the agency.
8
  Because 25 of the 229 settings relate to the VISTA operating system, which the IRS does not operate, the actual
number of FDCC settings the IRS plans to implement is 254 (229 + 50 – 25 = 254).
                                                                                                           Page 3
                           Progress Has Been Slow in Implementing
                    Federal Security Configurations on Employee Computers



   •   On October 29, 2008, the IRS implemented 102 FDCC settings. Combining this effort
       with the settings already implemented on its common operating environment, the IRS
       implemented 205 (81 percent) of the 254 settings required on IRS workstation and laptop
       computers. However, this progress occurred 9 months after the OMB deadline and, as of
       December 11, 2008, several of the 229 mandatory settings were still not implemented.
Management Actions: Subsequent to the completion of our fieldwork, the IRS advised us that it
implemented 13 additional FDCC settings on IRS workstations and laptop computers. In
addition, the IRS classified eight settings as corporate deviations, which indicates the setting
cannot be implemented because doing so would adversely impact an application.

A Project Team Was Not Established in a Timely Manner to Effectively
Comply With the Office of Management and Budget Deadline
Despite the actions previously discussed, overall efforts toward implementing FDCC settings on
IRS computers have been slow. The IRS Modernization and Information Technology Services
Division should have established an FDCC project team to assess the scope of work that was
needed to implement the FDCC in a timely manner soon after the OMB issued its FDCC
directive in March 2007. However, the IRS waited until January 2008, 10 months after the OMB
memorandum was issued and 1 week before the February 1, 2008, OMB deadline established for
implementing the FDCC.
In October 2007, the Associate Chief Information Officer, Cybersecurity, sent an email to IRS
executives advising them to consider the implications of the OMB requirement. However,
actions to establish a team were not taken timely because some IRS officials assumed the
existing common operating environment was compliant with the FDCC requirements. The IRS
End User Equipment and Services organization did not learn of the OMB requirement until
October 2007, at which time it discussed the requirement with the Microsoft Corporation.
During this meeting, the magnitude and complexity of implementing the FDCC settings was
realized. However, the IRS waited an additional 3 months before appointing a project leader.
The delay in establishing a project team was the primary reason the IRS was untimely in
complying with the FDCC requirement, possibly resulting in inadequate security over taxpayer
data and computer operations. However, we did not assess the effect of the untimely
implementation and did not identify any security breaches as a result of untimely and incomplete
implementation of FDCC settings on IRS computers.

Some Basic Project Management Practices Were Not Followed
In addition to the delay in assembling a project team to lead the FDCC implementation efforts,
the IRS did not follow some basic project management practices. Project management is the
application of knowledge, skills, tools, and techniques to project activities to ensure a project

                                                                                            Page 4
                               Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers



meets its goals. In general, project management can be broken down into the processes of
planning, executing, monitoring, controlling, and closing a project. The project manager is the
person responsible for accomplishing the project objectives.
The Guide to the Project Management Body of Knowledge9 states that the project manager
should maintain an accurate and timely information base. Continuous monitoring provides
insight into the health of a project and identifies areas that require special attention. The project
manager should maintain a complete master control list of applications throughout the test phase
to monitor and control the testing. This basic project management practice allows the project
leader to ensure that all applications identified in the planning phase are actually tested and that
the test results are monitored for each application. The project manager should also develop and
maintain a Work Breakdown Structure10 to plan and manage the tasks necessary to accomplish
the project’s objectives.

Inadequate controls resulted in some applications not being tested
The FDCC project leaders tested IRS applications to ensure that they would properly operate
with the FDCC settings. However, they did not control and account for all applications that
needed to be tested. The master control list of applications used by the project leaders was
incomplete and did not account for many applications. In addition, the project leaders did not
update the master control list with test results to monitor the testing for each application and
ensure that all applications were tested.
The project leaders coordinated with the Modernization and Information Technology Services
Division’s Applications Development organization after completing a 2-week testing exercise on
September 16, 2008, and discovered 92 applications that were not accounted for on the master
control list. The discovery of the 92 applications required the project leaders to conduct
additional testing to ensure the applications would properly operate with the FDCC settings.
Examples of omitted applications included the:
    •   Electronic Installment Agreement Project. This application offers taxpayers the
        ability to establish streamlined payment agreements over the Internet. It allows taxpayers
        or authorized representatives (Power of Attorney) to self-qualify, apply for an installment
        agreement, and receive online approval notification.
    •   Enterprise Logistics Information Technology. This application is an integrated,
        web-based, real-time supply chain execution system used by the Accounts Management
        and Compliance Services Processing organizations to receive, store, manage, and
        distribute IRS tax forms.

9
  Published in 2004 by the Project Management Institute, it is an internationally recognized standard that provides
the fundamentals of project management as they apply to a wide range of projects, including software development.
10
   A deliverable-oriented grouping of project elements that organizes and defines the total scope of the project.
                                                                                                            Page 5
                             Progress Has Been Slow in Implementing
                      Federal Security Configurations on Employee Computers



The project leaders also did not use sources available to them to complete their master control
list of applications. The list was developed based on applications submitted by volunteer testers
and applications designated as important by IRS business units. However, other sources were
available such as the list of applications the IRS reports to the OMB as part of the annual Federal
Information Security Management Act11 compliance reporting process. This list contained
29 applications that were not accounted for on the project leaders’ master control list. When we
provided the names of the 29 applications to the project leaders, they delayed the implementation
of the FDCC settings to ensure the applications were tested. They found that 8 applications had
not been tested and 21 applications were tested but were not accounted for on the master control
list. Examples of missing applications from this source included the:
     •   Integrated Collection System. This application provides workload management, case
         assignment/tracking, inventory control, electronic mail, and case analysis tools to support
         the Small Business/Self-Employed Division collection fieldwork.
     •   Tip Database. This application is used by the Small Business/Self-Employed Division
         to store all tip rate agreement data for casinos. The Tip Database helps to quickly and
         more accurately identify nonfilers or tip income underreporters by eliminating errors
         from a previously manual process.
Another source available to the project leaders was the inventory of new applications maintained
by the Workstation Standards office, which is part of the End User and Equipment Services
organization within the Modernization and Information Technology Services Division. We
determined that five applications, acquired between January 22 and October 10, 2008, were
installed in the IRS operating environment without being tested for compatibility with the FDCC
settings. The project leaders believed the Workstations Standards office was responsible for
testing new software applications against the FDCC settings. However, the Workstation
Standards office tested the new applications for compatibility with the IRS’ current common
operating environment image, which did not include the new FDCC settings.
In addition to not maintaining a complete master control list of applications, the project leaders
did not account for the applications’ test results on the master control list. The test results for
each application should have been accounted for and recorded on the master control list to
monitor test results and ensure each application was tested. The project leaders relied on the
volunteer testers to test the applications that they use in their normal workday and to prepare a
helpdesk ticket if they found a problem. The testers were also asked to record their test results
on spreadsheets. However, the results from the testers’ spreadsheets were not recorded on the
master control list to ensure that all applications were tested.



11
  The Federal Information Security Management Act is part of the E-Government Act of 2002,
Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                              Page 6
                              Progress Has Been Slow in Implementing
                       Federal Security Configurations on Employee Computers



The risk of business disruption increases when the control and monitoring over testing are
inadequate. This risk was realized after the project team installed the first group of FDCC
settings on October 29, 2008. Within a few days, the
Financial Management Secure Payment System, a
                                                                A critical application used to
critical application, began to experience problems. The          certify tax refunds began to
application, which is used to certify tax refunds, was not    experience major problems after
tested. The IRS must pay significant penalties when it is      the IRS installed the first group
unable to timely certify refund checks. In this instance,              of FDCC settings.
the IRS avoided paying penalties because the project
team was able to reverse the FDCC settings from the
computers of employees who use the application. However, the incident highlights the risk of
not maintaining a complete master control list of applications and ensuring that all applications
are tested.

The Work Breakdown Structure was inadequate to plan and manage the FDCC
project
The Work Breakdown Structure developed by the project leaders lacked critical tasks that were
needed to accomplish the project’s objectives. Examples of the tasks include:
     •   Conduct a gap analysis to identify missing applications.
     •   Develop and maintain a master control inventory of applications and test results.
     •   Develop a “roll-back” plan in the event that a need arises to reverse the FDCC settings from
         IRS workstations.
     •   Develop presentations and present status report briefings to stakeholders and oversight
         agencies such as IRS executives, the OMB, the Department of the Treasury, and the
         Treasury Inspector General for Tax Administration.
     •   Coordinate with the IRS project that is planning to replace all IRS laptop and desktop
         computers.
Some of the critical work and activities were included in the Work Breakdown Structure.
However, the work and activities were described at a high level. Several activities lacked
detailed descriptions and delineation. The Project Management Institute defines a Work
Breakdown Structure as a deliverable-oriented hierarchical decomposition of the work to be
executed by the project team to accomplish the objectives and create the required deliverables.12
Each descending level represents an increasingly detailed definition of the project work.



12
  The Project Management Institute book entitled Practice Standard for Work Breakdown Structures, Second
Edition, 2006, provides guidance on the creation of a Work Breakdown Structure.
                                                                                                      Page 7
                            Progress Has Been Slow in Implementing
                     Federal Security Configurations on Employee Computers



The Work Breakdown Structure also lacked a critical path, which is the sequence of activities
that must be completed on schedule for the entire project to be completed on schedule. A critical
path allows the project manager to identify and calculate the effect of delays and manage the
inevitable challenges that occur on all large complex projects.
A Work Breakdown Structure that does not include the planned work, critical path, and detailed
descriptions of activities does not fulfill its primary purpose, which is to help the project leader
manage the project, identify schedule delays, and ensure completion of all tasks in a timely
manner. Considering the complexity of implementing FDCC settings throughout the IRS, we
believe a more complete Work Breakdown Structure could have improved the planning and the
timeliness of implementing the FDCC settings.
We attribute the inadequate testing controls and Work Breakdown Structure to a lack of basic
project management skills and qualifications. The project managers assigned to this project did
not have the necessary skills to lead a project of this complexity.

Recommendations
To ensure that basic project management practices are followed, the Chief Technology Officer
should:
Recommendation 1: Provide training to the FDCC project managers to ensure their project
management skills and qualifications are sufficient.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Chief Technology Officer will provide the FDCC project leaders with project
       management training to ensure their skills and qualifications are sufficient.
Recommendation 2: Instruct the FDCC project leaders to develop and maintain an accurate
master control list of all applications that require testing. The master control list should be
frequently updated to account for software applications that are developed in-house or acquired
from vendors. The master control list should also be updated with the test results for each
application to verify that each application is tested and to maintain an accurate and timely
information base for all test results.
       Management’s Response: The IRS agreed with this recommendation and will
       ensure the master control list of applications is maintained and updated to account for
       software applications that are developed in-house or acquired from a vendor. The master
       control list will be updated with test results to indicate which applications have been
       tested and will be maintained as an accurate and timely information base.




                                                                                              Page 8
                              Progress Has Been Slow in Implementing
                       Federal Security Configurations on Employee Computers



An Automated Monitoring Tool Was Not Implemented to Detect
Changes to Workstation Security Settings
Long before the issuance of FDCC requirements by the OMB, the IRS had been required to
monitor the security configuration settings on IRS workstations. The task of monitoring
computer settings is paramount to ensure that once secure settings have been implemented those
settings have not been improperly changed. In a
previous review13 of the IRS common operating
environment, we reported that security settings were not         The IRS spends an average of
consistently maintained once installed. In that report we        $2 million each year to perform
found that, of our sample of 102 computers with the              monthly scans on a sample of
common operating environment image installed, only                    computers to detect
                                                                    unauthorized changes to
42 were secure. The remaining 60 computers complied                      security settings.
with less than 90 percent of the computer settings
prescribed by the IRS or contained at least 1 high-risk
vulnerability that could be exploited to either take control of the computer or render it unusable.
We attributed the weak security settings to system administrators because they are the only
persons authorized to change the security settings on employee workstations.
To detect and monitor changes to its common operating environment, the IRS uses the Windows
Policy Checker14 product. This tool is used to perform monthly scans on a sample of computers
to detect unauthorized changes to security settings. However, the tool is labor intensive and the
Modernization and Information Technology Services Division spends an average of $2 million
each year to operate the tool. In May 2007, the IRS initiated the Security Compliance Posture
Monitoring and Reporting Project to develop an automated enterprise approach to monitor
security settings and manage information technology assets. Part of the project included
acquiring an automated tool, validated by the National Institute of Standards and Technology, to
monitor configuration settings. The tool would be used to automatically scan computers
throughout the IRS network.
The OMB created a greater sense of urgency when it required15 Federal Government agencies to
monitor the FDCC settings by acquiring and using a tool compliant with the National Institute of
Standards and Technology’s Security Content Automation Protocol.16 The Department of the
Treasury reinforced the OMB requirement by setting an implementation deadline of


13
   Secure Configurations Are Initially Established on Employee Computers, but Enhancements Could Ensure
Security Is Strengthened After Implementation (Report Reference 2006-20-031, dated February 2006).
14
   A tool used to determine whether systems are adhering to security policies.
15
   Memorandum for Chief Information Officers, Establishment of Windows XP and VISTA Virtual Machine and
Procedures for Adopting the Federal Desktop Core Configurations, dated July 31, 2007.
16
   A method for using specific standards to enable automated vulnerability measurement and policy compliance
evaluation. It is used to enumerate software flaws and security-related configuration issues.
                                                                                                         Page 9
                           Progress Has Been Slow in Implementing
                    Federal Security Configurations on Employee Computers



January 31, 2008. However, the IRS has not complied with the OMB and Department of the
Treasury requirements and has not purchased an approved scanning tool.
The delay in implementing the automated monitoring tool is due to a change in acquisition
strategy. The IRS attempted to establish a sole-source contract to save time and costs in the
acquisition process. However, in October 2008, the IRS Procurement Review Board rejected the
sole-source procurement strategy and required the IRS to use an open-competition procurement.
The IRS’ initial plan was to complete the Security Compliance Posture Monitoring and
Reporting acquisition and deploy the monitoring tool in December 2009. However, the change
in acquisition strategy will cause an additional delay. As of October 1, 2008, the IRS had not
completed a request for proposal, which is a crucial first step in acquiring the product.
Until an automated enterprise monitoring tool is implemented, the IRS will 1) be vulnerable to
unauthorized changes to its security settings, 2) be noncompliant with the OMB and Department
of the Treasury requirements, and 3) incur maintenance costs for its outdated and labor-intensive
Windows Policy Checker tool. In addition, it will be unable to monitor compliance with the
FDCC settings throughout the organization. These risks increase the need to acquire a
monitoring tool in a more timely manner than can be achieved through the Security Compliance
Posture Monitoring and Reporting acquisition.
A viable alternative to the current acquisition strategy might be the General Services
Administration’s Government-wide blanket purchase agreement, referred to as the SmartBuy
Program. The SmartBuy Program allows Federal Government agencies to select from an
approved list of information technology vendors that provide security products with the ability to
monitor and report on FDCC compliance. The security products have been validated as
compliant with the National Institute of Standards and Technology’s Security Content
Automation Protocol guidelines.

Recommendation
Recommendation 3: The Chief Technology Officer should conduct an analysis of the costs
and benefits of separating the purchase of the automated monitoring tool from the Security
Compliance Posture Monitoring and Reporting acquisition. The cost-benefit analysis would
allow the IRS to decide whether to purchase the tool from the General Services Administration’s
SmartBuy Program.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Technology Officer will perform a cost-benefit analysis and request senior Modernization
       and Information Technology Services Division leadership to consider whether the
       purchase of a separate monitoring tool through the General Services Administration’s
       SmartBuy Program would be in the IRS’ best interest.


                                                                                          Page 10
                               Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers



Software Contracts Were Not Modified to Ensure Software
Acquisitions Operate Properly With Federal Desktop Core
Configuration Settings
The Federal Acquisition Regulation requires Federal Government agencies to include specific
language in contracts for information technology purchases. When acquiring information
technology, agencies must include the appropriate information technology security policies and
requirements, including the common security configurations available from the National Institute
of Standards and Technology.
The Department of the Treasury also requires the IRS to include specific FDCC language in
software contracts. The new contract language recommended by the Department of the Treasury
is intended to ensure that new acquisitions include common security configurations and that
information technology providers certify that their products operate effectively using these
configurations. The Department of the Treasury specified the following recommended language
as a guide for agencies to use in their contracts:
         “a) The provider of information technology shall certify applications are fully functional
         and operate correctly as intended on systems using the Federal Desktop Core
         Configuration (FDCC). This includes Internet Explorer 7 configured to operate on
         Windows XP and Vista.
         b) The standard installation, operation, maintenance, updates, and/or patching17 of
         software shall not alter the configuration settings from the approved FDCC
         configuration…”
The Department of the Treasury guidance was issued in June 2007. However, the IRS has not
fully adopted the new FDCC contract language. We identified 27 (90 percent) of 30 contracts
for new software products, including software upgrades and maintenance contracts, which did
not include the required FDCC contract language. The three contracts that included the new
FDCC language were uniquely processed because the contracts were sent by IRS business units
directly to the Cybersecurity office for review rather than to the IRS Procurement Division.18
The Cybersecurity office ensured the FDCC language was incorporated into the contracts prior
to the contracts being forwarded to the Procurement Division. The 27 contracts that did not
include the required FDCC language were not forwarded to the Cybersecurity office for review.
These contracts totaled more than $15.8 million and included software products such as:
     •   VMware Workstation – A management tool for system administrators to enable control,
         configuration, monitoring, and troubleshooting a virtual server.

17
   A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
18
   The Procurement Division is part of the IRS Agency-Wide Shared Services Division.
                                                                                                            Page 11
                           Progress Has Been Slow in Implementing
                    Federal Security Configurations on Employee Computers



   •   Brava! Enterprise – Software that provides secure content visualization and annotation
       for the IRS’ internal and external web sites.
   •   SecureDoc – Software that is used for full disk encryption to protect sensitive
       information stored on laptop and desktop computers.
The IRS did not place sufficient emphasis on implementing the requirement to adopt the FDCC
contract language into its contracts. As a result, the IRS has not contractually obligated vendors
to provide applications and software products that operate as intended with the FDCC. As a
result, the IRS may be procuring software products that are not secure and would need to expend
additional resources to correct deficiencies. If acquired software products are tested and found to
be incompatible with the FDCC, the IRS would not have adequate recourse and the vendor
would have the right to demand payment.

Recommendation
Recommendation 4: The Chief Technology Officer should direct the Cybersecurity office to
coordinate with the Procurement Division and prioritize the work that is necessary to include the
required FDCC contract language in information technology acquisitions.
       Management’s Response: The IRS agreed with this recommendation and will
       ensure affected stakeholders coordinate and prioritize the work that is necessary to issue
       an agency-wide policy and interim acquisition procedures that incorporate the FDCC
       contract language into information technology acquisitions.




                                                                                           Page 12
                              Progress Has Been Slow in Implementing
                       Federal Security Configurations on Employee Computers



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has made adequate
progress in implementing required Federal secure configurations on employee computers. These
Federal secure configurations are referred to as the FDCC. To accomplish our objective, we:
I.      Identified the FDCC security settings that the National Institute of Standards and
        Technology1 published for Federal Government computers running Windows XP and
        determined the cause for any delays in implementing the settings.
        A. Reviewed the National Institute of Standards and Technology checklist to identify the
           required FDCC settings. We determined when the checklist was finalized and made
           available to Federal Government agencies.
        B. Reviewed the Internal Revenue Manual and compared it to the FDCC settings to
           determine how many FDCC settings were established in IRS procedures prior to the
           FDCC being required.
        C. Evaluated the stability of the National Institute of Standards and Technology
           checklist and identified changes that were made after initial publication of the
           checklist.
        D. Interviewed End User Equipment and Services organization project personnel to
           determine whether the IRS completed an initial FDCC compliance assessment and
           established a project team in a timely manner.
        E. Interviewed project leaders to determine whether the FDCC project team had
           adequate executive leadership and oversight during the early phases of the project.
II.     Evaluated the End User Equipment and Services organization project team’s testing
        methodology to determine whether the current testing is adequate to adopt the highest
        possible number of FDCC settings in a timely manner.
        A. Interviewed the End User Equipment and Services organization lab team and
           obtained a walk-through of their testing methodology. We determined whether the




1
 The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
                                                                                                        Page 13
                               Progress Has Been Slow in Implementing
                        Federal Security Configurations on Employee Computers



             current testing methodology will identify potential problems if the FDCC settings are
             installed in the common operating environment.2 We determined:
             1. The number of FDCC settings that have been tested and approved.
             2. The scope of the testing.
             3. How the applications are tested, i.e., tested in isolation or while operating
                simultaneously with other applications running in the user environment.
             4. Whether the test environments used for testing are representative of actual IRS
                operating environments.
             5. How the settings are passed or deemed acceptable for the IRS common operating
                environment.
             6. The number of settings implemented, via Active Directory, on IRS computers.
        B. Interviewed project personnel to determine why the first testing methodology was
           unsuccessful and how much of a delay the failed test methodology caused.
        C. Evaluated the Work Breakdown Structure to determine whether the timetable for
           testing all FDCC settings is feasible.
        D. Analyzed test reports to verify that the test team documented and analyzed results.
        E. Determined how the Security Content Automation Protocol3 testing tool operates and
           its effect on the FDCC implementation efforts.
        F. Evaluated the procedures the lab follows to control and address the problems/issues
           that are identified in the test environment.
III.    Evaluated the implementation of FDCC settings in the IRS computing environment to
        determine whether the IRS installed the settings that were tested and approved by the
        End User Equipment and Services organization project team.
        A. Interviewed project team personnel and reviewed documentation to determine
           whether the IRS has made progress in implementing the FDCC settings.
        B. Evaluated justifications for FDCC deviations to determine whether they were
           warranted.

2
  To ensure consistency across the IRS network and improve security, the IRS created the common operating
environment, which is a standardized set of commercial off-the-shelf and internally developed applications to
support the needs of all IRS employees using Microsoft Windows. The common operating environment also allows
the IRS to control security configuration settings and software on its workstations by changing one master template
and then installing it on all computer workstations throughout the agency.
3
  A method for using specific standards to enable automated vulnerability measurement and policy compliance
evaluation. It is used to enumerate software flaws and security-related configuration issues.
                                                                                                          Page 14
                         Progress Has Been Slow in Implementing
                  Federal Security Configurations on Employee Computers



IV.   Evaluated the controls and tools used by the End User Equipment and Services
      organization to monitor compliance with the FDCC settings that have been put in place.
      A. Determined whether the IRS had taken corrective actions to address the issues in our
         audit report Secure Configurations Are Initially Established on Employee Computers,
         but Enhancements Could Ensure Security Is Strengthened After Implementation
         (Reference Number 2006-20-031, dated February 2006).
      B. Interviewed the project team to determine whether the IRS had automated the
         enforcement of the FDCC settings.
      C. Interviewed project personnel to determine how the End User Equipment and
         Services organization restricts administration of the configuration settings.
      D. Determined whether the IRS established a process to ensure acquisitions made after
         June 2007 include the FDCC settings and that information technology vendors certify
         that their products operate effectively using the configurations.




                                                                                         Page 15
                          Progress Has Been Slow in Implementing
                   Federal Security Configurations on Employee Computers



                                                                               Appendix II

                 Major Contributors to This Report

Margaret Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Stephen Mullins, Director
Kent Sagara, Acting Director
W. Allen Gray, Audit Manager
Cari Fogle, Senior Auditor
George Franklin, Senior Auditor
Bret Hunter, Senior Auditor
Esther Wilson, Senior Auditor




                                                                                        Page 16
                         Progress Has Been Slow in Implementing
                  Federal Security Configurations on Employee Computers



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Associate Chief Information Officer, Cybersecurity OS:CIO:C
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EUES
Director, Stakeholder Management Division OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Associate Chief Information Officer, Cybersecurity OS:CIO:C
       Associate Chief Information Officer, End User Equipment and Services OS:CIO:EUES
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 17
             Progress Has Been Slow in Implementing
      Federal Security Configurations on Employee Computers



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 18
       Progress Has Been Slow in Implementing
Federal Security Configurations on Employee Computers




                                                   Page 19
       Progress Has Been Slow in Implementing
Federal Security Configurations on Employee Computers




                                                   Page 20
       Progress Has Been Slow in Implementing
Federal Security Configurations on Employee Computers




                                                   Page 21
